No. _____________________
IN THE
SUPREME COURT OF THE UNITED STATES
TYSLEN J. BAKER,

PETITIONER

V.
UNITED STATES OF AMERICA,

RESPONDENT

PROOF OF SERVICE
I, Michael T. Lee, do swear or declare that on this date, February 22, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI
on each party to the above proceedings or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Elizabeth Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Ave NW
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 22, 2021
/s/ Michael T. Lee

